No. ______
IN THE

Supreme Court of the United States
ORLANDO CARTER,
Petitioner,
v.
DISTRICT OF COLUMBIA,
Respondent.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the document contains 4,479
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 1, 2021.

/s/ Jessica Ring Amunson
Jessica Ring Amunson

